COMMUNITY FINANCIAL CREDIT UNION
MasterCard CARD HOLDER AGREEMENT
THIS IS YOUR AGREEMENT WITH COMMUNITY FINANCIAL CREDIT UNION (COMMUNITY FINANCIAL) REGARDING RIGHTS
AND RESPONSIBILITIES ASSOCIATED WITH OBTAINING A MasterCard CREDIT CARD. THE DISCLOSURE STATEMENTS THAT
FOLLOW ARE REQUIRED BY FEDERAL REGULATIONS, INCLUDING THE TRUTH IN LENDING AND FAIR CREDIT BILLING ACTS.
PLEASE READ THIS DISCLOSURE CAREFULLY TO BE FAMILIAR WITH YOUR RIGHTS AND RESPONSIBILITIES. IT IS IMPORTANT
TO RETAIN THIS NOTICE FOR FUTURE REFERENCE AND TO NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
1.
WORDS OFTEN USED IN THIS AGREEMENT. The word “Agreement” means this Community Financial Credit Union MasterCard Credit
Card Agreement. In this Agreement, the words “you” and “your” mean or refer to each and all persons who have applied for the Card or Cards.
“Card” means the MasterCard Credit Card or Cards, and any duplicates and renewals thereof, or substitutions thereof, we may issue to you.
“Account” means your MasterCard Credit Card line of credit loan account with us. “We,” “us” and “ours” means or refers to Community Financial
Credit Union.
2.
THIS IS YOUR CONTRACT WITH US. Once this agreement is provided to you, it becomes a binding contract. When you signed the
application, you acknowledged that you would receive a copy of this Agreement and promised to abide by the terms of this Agreement including all
applicable laws. This Agreement is a Truth-in-Lending Disclosure Statement as well as a contract.
3.
SIGN THE CARD. Your Card(s) have been printed as you have directed. Each Card must be signed (in the space provided on the back) by
the person whose name is printed thereon. That signature must be in the same form as printed on the front of the Card. However, your liability under
this Agreement does not depend on whether you sign your Card.
4.
USING THE CARD. By using this Card, you are agreeing to comply with the terms of this Agreement. To make a Purchase or Cash Advance
(which includes Balance Transfers), present the Card to a participating MasterCard plan merchant or financial institution and sign the sales draft or
cash advance draft (when required) which will be imprinted with your Card or generated after your Card’s number has been magnetically read or
otherwise provided. Please note that we are not responsible if a particular MasterCard plan merchant or financial institution refuses to honor your
Card. You can receive a copy of any draft you sign or a corresponding transaction slip when using the Card. You should retain all such items to
verify your monthly statement. We will upon request furnish you with a copy of a draft for a charge per copy; however, there will be no charge in
cases involving error resolution. You may use your Card to make purchases and cash advances primarily for personal, family, or household purposes.
In addition, you may obtain cash advances from the Credit Union or from other financial institutions that accept MasterCard Cards or ATMs that
accept MasterCard Cards. Whenever you request a transaction, you may be required to prove your identity. When the amount advanced appears on a
subsequent statement, that statement reference will be conclusive evidence of the request. To obtain an advance at an ATM you must use a Personal
Identification Number (PIN) that was issued for use with the Card.
5.
CHECKING ACCOUNT INDIRECT ACCESS. If you so choose, when you write a check drawn on your Community Financial Checking
Account that overdraws that account, we will add the amount by which your Checking Account is overdrawn to your MasterCard Balance and
transfer that amount to your Checking Account to cover the overdraft.
6.
ILLEGAL TRANSACTIONS. You agree that you will only use your Account for transactions that are legal where you reside. Display of a
payment card logo by an on-line merchant does not mean that the transaction with that merchant is legal where you reside. You agree not to use your
Card for any illegal transactions. We will not be liable if you engage in any illegal transactions.
7.
PROMISE TO PAY. You promise to repay to us all debts and the FINANCE CHARGE thereon arising from any authorized use of the Card.
You agree not to let someone else use the card without our consent. If the application was signed by two persons, the Account is joint; that is, each
of you, separately and jointly with each other, is liable for all debts on the Account and FINANCE CHARGE(S). Your obligation to pay all such
debts and FINANCE CHARGE(S) continues even though an agreement, divorce decree or other court judgment to which we are not a party may
direct that only one of you, or some person other than you (or both of you), must pay such debts and FINANCE CHARGE.
7a. SECURITY INTEREST. You hereby grant us a security interest in collateral (other than collateral consisting of (i) real estate that is your
principal residence; and (ii) household goods) securing other loans with us to secure credit under this Agreement. This security interest shall be
governed by the terms and conditions of the security agreement or other security instrument signed by you when the security interest in the collateral
was created.
8.
CREDIT LINE. When we approved your application, we established a self-replenishing line of credit for you and notified you of the amount
thereof (“credit limit”). You agree not to let your Account Balance exceed such amount, and you agree to pay us the total amount over the credit limit
upon our demand whether or not we authorized the advance(s) which caused you to exceed your credit line. Unless you are in default, each payment
you make on the Account will replenish your credit limit by the part of that payment which is applied to principal. You may request an increase in the
credit limit by a written application, which must be approved by us. We may increase or decrease the limit from time to time or may, with good
cause, revoke your Card and terminate this Agreement; in either event, we will give you written notice of such action. “Good Cause” includes your
failure to satisfy the terms of this Agreement or our adverse reevaluation of your Credit worthiness; in either event, we will give you written notice of
such action. In the event your account is cancelled or revoked due to default, the balance at the time of default may be transferred in-house with the
Credit Union and billed in accordance with applicable law. You may terminate this Agreement, at any time and for any reason, by giving us written
notice. Nevertheless, termination by you or by us does not affect your obligation to pay all debts and FINANCE CHARGE thereon arising from
authorized use of your Card. The Cards remain our property and you must recover and surrender to us all Cards upon our request or upon termination
of this Agreement.

9.
JOINT ACCOUNTS. If more than one person signed the application, each person who signed it promises to pay all amounts owed to us under
this Agreement. Each of you authorizes the other(s) to make purchases, withdrawals, cash advances or balance transfers individually. Any one of you
may cancel the Account. The cancellation will be effective to all of you. Each of you is jointly and severally obligated. This means that we may
collect money owed to us from each of you or from all of you regardless of your current domestic relationship or other legal proceedings. In any
event, all of you will continue to be jointly and severally obligated until all cards are returned and the debt is extinguished.
10. AUTHORIZED USERS. You may allow Authorized Users on your Account by notifying us that you want someone added to the account as an
Authorized User and obtaining our consent. Additionally, though not allowed, you will be deemed to have personally authorized another user in the
following ways (1) by lending your Card or Account Number to another (without our required consent); or (2) by any other means in which you
would be legally considered to have allowed another to use your Account or be legally prevented from denying that you did so. Think carefully
before you allow someone to become an Authorized User (in any manner). By doing so, you authorize the person to use your Account to the same
extent you can, including but not limited to making Purchases, Checking Account Indirect Access, Cash Advances, Balance Transfers and allowing
others to use your Account. Your Account does not permit you to limit the nature or amount of authority you give to any Authorized User and you
agree that you will not attempt to do so. An Authorized User’s authority will continue until you both notify us that you are terminating the authority
and you physically retrieve the Card. If you cannot retrieve the Card, you will remain liable for any transactions we cannot prevent after you notify
us.
11. PAYMENTS. We will send you a statement every month showing your Previous Balances of purchases, cash advances and balance transfers,
the current transactions on your account, the remaining credit available under your Credit Line, the New Balances of purchases, cash advances and
balance transfers, the Total New Balance, the FINANCE CHARGE due to date, and the Minimum Payment required. Every month you promise to
pay at least the Minimum Payment on or before the due date shown on your statement. You may, of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and you will reduce the FINANCE CHARGE by doing so. The Minimum Payment will be
either (a) 3% of your Total New Balance (rounded to the nearest dollar), or $15.00, whichever is greater, or (b) your total New Balance, if it is less
than $15.00 plus (c) any portion of the Minimum Payment(s) shown on prior statement(s) which remains unpaid. In addition, at any time your total
New Balance exceeds your Credit Line, you must immediately pay the excess upon our demand. Any payment check or other form of payment that
you send us for less than the full balance due that is marked “paid in full” or contains a similar notation, or that you otherwise tender in full
satisfaction of a disputed amount, must be sent to the Credit Card Disputes Department, Community Financial, 500 S. Harvey, Plymouth, MI 48170.
We reserve all our rights regarding these payments (e.g. if it is determined that there is no valid dispute or if any such check is received at any other
address, we may accept the check and you will still owe any remaining balance). We may refuse to accept any such payment by returning it to you,
not cashing it, or destroying it. All other payments that you make should be sent to the appropriate payment address.
12. PAYMENT ALLOCATION. We may select and change the method by which payments and credits are allocated to your account at our sole
discretion; however, payments will be allocated to billed amounts before they are allocated to unbilled amounts (transactions incurred since your last
statement) and payments amounts in excess of the required minimum monthly payment will be applied to higher rate balances before they are applied
to lower rate balances. Payment for more than the minimum amount due will be accepted as a single payment for the month; the amount over the
minimum is not applied toward future payments due.
13. FINANCE CHARGE. Your MasterCard Account will be subject to a FINANCE CHARGE (interest) at the periodic rate of _________% per
month, which corresponds to an ANNUAL PERCENTAGE RATE of ________%. If you fail to pay any required minimum payment for more
than 60 days after the payment is due, we may increase the monthly periodic rate to 1.500%, corresponding to an ANNUAL PERCENTAGE RATE
of 18.00%. This increased rate, once imposed, will remain in effect until you make six consecutive minimum payments on time.
The FINANCE CHARGE is calculated by applying the above periodic (monthly) rate to the Average Daily Balance (including new purchases). An
“Average Daily Principal Balance” is calculated separately for purchases, cash advances and balance transfers and is determined as follows: For each
day during the statement period (billing cycle) the principal balances of purchases, cash advances and of balance transfers from the previous day are
increased by any purchases, cash advances or balance transfers posted to the Account that day and decreased by any payments or credits posted to the
Account that day. Such daily principal balances are separately totaled and then divided by the number of days in the statement period (billing cycle),
resulting in the “Average Daily Principal Balances” of purchases, cash advances and balance transfers shown on your statement.
You can avoid FINANCE CHARGES on purchases by paying the total New Balance each month on or before the payment due date shown on your
monthly statement. Otherwise, the New Balance of Purchases, and subsequent purchases from the date they are posted to your account, will be
subject to FINANCE CHARGE, except that if during the previous billing cycle you paid all amounts owing in full by the Payment Due Date, then in
the current billing cycle you will have a free interest period on the amount of the New Balance of Purchases remaining from the previous billing
cycle that is paid by the Payment Due Date based on our payment allocation method. Cash Advances and Balance Transfers bear FINANCE
CHARGES from the transaction date until paid. There is no FREE INTEREST period for Cash Advances and Balance Transfers. However, you can
always keep the FINANCE CHARGE to a minimum by making payments, whatever the amount, as promptly and as often as possible.
14. PERIODIC STATEMENTS. We will send you a statement every month showing your previous balance, purchases, cash advances and balance
transfers, payments made on your account, periodic rate, annual percentage rate, finance charge and its method of computation, any other charges,
free interest period, payment due date, procedures for error resolution, Minimum Payment required, and the closing date with corresponding New
Balance for the billing cycle. You may not receive a statement on your Account if there has been no activity, if collections procedures have been
initiated against you because you are in default, or we are legally prohibited from sending them. Each statement is deemed to be a correct statement
unless you establish a billing error pursuant to the Federal Truth in Lending Act as described in this Agreement.
15. DEFAULT. You will be in default and we may, to the extent permitted by law, terminate your credit line and declare the entire unpaid balance
of the account immediately due and payable, under any of the following conditions:
•
You fail to make the minimum payment by the statement payment due date;
•
You breach any other promises made in or conditions of the Agreement and/or any other agreement with us;

•
•

You use your card for an illegal transaction;
If you become involved in any insolvency, receivership, guardianship, conservatorship, or any other proceeding which determines you
are incapable of managing your financial affairs, including filing for Bankruptcy;
•
You have made a false or misleading statement in your credit application and/or in your representation to us while you owe money on
your account;
•
A judgment or tax lien is filed against you or any attachment or garnishment is issued against any of your property or accounts, including
anyone starting an action or proposing to seize any of your funds on deposit with us;
•
We in good faith determine that your creditworthiness (which includes your ability to repay us) has become unsatisfactory due to change
in employment, increase in your other obligations, or because of any other reason, time being of the very essence;
•
You die; or
•
Government action precludes us from imposing the annual percentage rate or a government authority has notified us that continued
advances constitute an unsafe and unsound practice.
In the event of any default, we may, at our option, declare the entire balance on the Account to be immediately due and payable.
16. COLLECTION COSTS. You also agree that, in case of default, you will pay all usual and customary costs of collection permitted by law,
including, but not limited to, attorney fees and expenses incurred by us in the enforcement of this agreement.
17. DELAY OR FAILURE TO ENFORCE. We do not lose our rights under this or any related agreement if we delay or fail to enforce them. We
can accept late payments or partial payments without losing any of our rights.
18. NOTIFICATION OF ADDRESS CHANGE. You agree to notify us promptly if you change your name, street address, email address or
telephone number.
19. ADDRESS FOR NOTICES TO US. All notices under this Agreement must be in writing and mailed to Community Financial at 500 S. Harvey,
Plymouth, Michigan 48170.
20. CHANGE IN TERMS. From time to time, we may amend this Agreement by mailing a written notice of the amendment to you at the last
address shown for you in our records. In the event the terms we are changing require advance notice by law, we will comply with the requirements of
that law.
21. YOU MAY CANCEL THE ACCOUNT. You may cancel the account whenever you choose. If you do, you agree to cut each Card in half and
return it to us at the address shown in Section 19 above, along with your written notification that you wish to cancel the account. Such cancellation
will become effective within five days after the notice is received by us. You will still be responsible for the repayment of any outstanding balance on
your account and any other amounts that have not yet been billed to you.
22. WE MAY CANCEL THE ACCOUNT. We have the right to cancel the account at any time upon written notice sent to you at the last address
shown for you in our records. You agree to discontinue the use of the Cards, and to return the Cards to us, at our request.
23. CREDIT REPORTING AGENCIES. You authorize us to investigate your credit standing when opening, renewing or reviewing your Account,
and you authorize us to disclose information regarding our experience with you under this Agreement to consumer reporting agencies, bureaus and
other creditors. If you request it, we will provide the name and address of each consumer reporting agency used for this purpose. If you believe we
have reported inaccurate information about you to a consumer reporting agency, please notify us at Community Financial, 500 S. Harvey, Plymouth,
Michigan 48170. In doing so, please identify the inaccurate information and tell us why you believe it is incorrect. If you have a copy of the credit report
that contains the alleged inaccurate information, please send us a copy of that report as well. You are hereby notified that negative information will be
provided to appropriate consumer reporting agencies if you fail to perform your obligations under this agreement.
24. TRANSACTION SLIPS. Your periodic statement will identify the merchant, electronic terminal location, or financial institution at which
transactions were made. Sales, cash advance, credit or other slips cannot be returned with each statement. You must retain the copy of such slips
furnished at the time of each transaction in order to verify the transactions listed on your statement. You agree to pay a reasonable fee for copies of
transaction slips that you request.
25. CREDITS. If merchants who honor your Card give you a credit for returns or adjustments, they will do so by processing a credit which we will
post to your Account. You should keep your copy of the credit slip to verify your monthly statement. If your credits and payments exceed what you
owe us on the Account we will credit such excess to the Account and, if the amount is $1.00 or more, we will credit it to your share account after two
(2) months or upon your written request.
26. FOREIGN TRANSACTIONS. Purchases and cash advances made in foreign countries and foreign currencies will be billed to you in U.S.
dollars. The exchange rate for transactions in a foreign currency will be a rate selected by MasterCard from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from the rate MasterCard itself receives, or the government
mandated rate in effect for the applicable central processing date.
27.

TRANSACTIONS WITH MERCHANTS.
•
Return Policies – If a merchant discloses a policy such as but not limited to “no returns,” “no refunds,” “as is,” or “all sales final” you
will be bound by that policy when you use your Account to buy goods or services from that merchant.
•
Reservations – When using your Account to make a travel or lodging reservation, obtain the merchant’s cancellation policy and follow it
if you wish to cancel. If you cancel, obtain the merchant’s cancellation number that is required to be provided to you. The merchant may
charge you for a cancelled transaction unless you can provide us with the merchant’s cancellation number.

•
•

Recurring Transactions – If you authorize a merchant to charge your Account for repeat transactions without your Card, you must notify
the merchant, and not us, when you want to discontinue the repeat transactions.
Dispute Access – If you disagree with a transaction on your statement or have a dispute with a merchant as a result of a transaction, you
agree to provide us with information and assistance we reasonably request. Otherwise, you will pay us for any resulting loss we have,
unless we are prohibited by law from holding you liable for our loss.

28. CARD AGREEMENT. You understand that your MasterCard Credit Card is issued by us, remains our property, and is subject to rules
governing ATM networks, which financial institutions must follow. The cards are not transferable. By using your card, you are agreeing to the
following additional terms: (1) To abide by the rules and regulations and those of the participating ATM network as may be amended; (2) That we
and the ATM network may follow all electronic instructions given through the ATM; (3) that we may restrict the use of or terminate your card at any
time without notice to prevent loss to your account or to the Credit Union; (4) your Card may not be used for any illegal transaction.
29. DAILY LIMITS. You agree to adhere to any daily limits established by the Credit Union in conformance with the ATM network agreement
and which are subject to modification to preserve the integrity of the ATM network and prevent loss to the Credit Union or its members.
30. PERSONAL IDENTIFICATION NUMBER (PIN). Upon request we will furnish you with a Personal Identification Number (PIN). You agree
to keep the PIN confidential. You also agree you won’t write the PIN on the Card or anything you keep with the Card. Your use of the PIN and Card
in getting a Cash Advance or making a Purchase is agreed to constitute your signature for purposes of such transactions. You can also use your card
together with your Personal Identification Number (PIN) to get a Cash Advance from an Automated Teller Machine (ATM) in the MasterCard
Network, to get a Cash Advance from a MasterCard financial institution, or to make a Purchase from a merchant that uses the Card in an electronic
terminal that accesses the MasterCard system. IF YOU FORGET OR DO NOT ENTER YOUR PIN CORRECTLY, THE ATM MAY KEEP YOUR
CARD THE THIRD TIME THE PIN IS ENTERED INCORRECTLY. THIS PROCEDURE IS FOR SECURITY MEASURES. KEEP YOUR PIN
IN A SECRET PLACE. If you authorize us to issue a Card to anyone else for use through any electronic access device, you are authorizing that
individual to withdraw funds from any account which can be accessed by that card, regardless of whether that individual is authorized to withdraw
money from the account by any other means.
31. FEES AND CHARGES. You agree to pay the various fees and charges related to this Agreement and included in the Fee Schedule that is
accessible to members upon request. You agree to pay any related charges that are imposed as a result of your use of the MasterCard Credit Card or
an ATM. Current fees associated with the MasterCard Credit Card include:
•
Late Payment: If the required minimum payment due under this Agreement is not received by the 1st day of the month after the month in
which the payment is due, your account may be charged, and you agree to pay, a LATE CHARGE of up to $35.00 (the actual fee may be
lower). No further late charges will be imposed after this Agreement has become due and payable in full due to default as specified in the
section of the Agreement entitled “Default.” The charge shall be treated as a purchase on your monthly statement.
•
Returned Checks: If a check or share draft used to make a payment on your account is returned unpaid, your account may be charged,
and you agree to pay, a RETURNED CHECK CHARGE of $12.00. The charge shall be treated as a purchase on your monthly
statement.
•
Returned Electronic Funds Transfer Payments: If an electronic funds transfer used to make a payment on your account is returned
unpaid, your account may be charged, and you agree to pay, a RETURNED ELECTRONIC FUNDS TRANSFER CHARGE of $12.00.
•
Draft Copy: Your account may be charged, and you agree to pay, $6.00 for each copy of a sales draft and $5.00 for each copy of a
statement that you request (except when such request is made in connection with a billing error).
•
Replacement Card: Your account may be charged, and you agree to pay a fee of $5.00 for replacement of Card(s).
•
PIN Replacement: Your account may be charged, and you agree to pay, a fee of $2.00 for each new or replacement PIN you request.
•
ATM Fees: Your account may be charged, and you agree to pay, any ATM fees, including surcharges or other fees imposed by a
financial institution or network for transactions at ATMs.
•
International Transaction Fee: Your account may be charged, and you agree to pay, a Cross Border Fee of .9% of the transaction and a
Currency Conversion Fee of .2% of the transaction. These fees may be assessed on all international purchases, credit vouchers, and cash
disbursements.
32. LIABILITY FOR FAILURE TO COMPLETE TRANSACTIONS. We will not be liable for transactions that are not completed if any of the
following circumstances apply:
•
Through no fault of ours, you do not have sufficient funds available in your credit line;
•
The transaction would cause you to exceed your credit limit;
•
The ATM where you are requesting a cash advance does not have enough cash;
•
The terminal or system was not working properly and you knew of the malfunction at the time you initiated the transactions;
•
Circumstances beyond our control (such as fire or flood) prevent the transaction, despite reasonable precautions we have taken;
•
Your Card is retained by the ATM;
•
Your Card or PIN has been reported lost or stolen and your account has been blocked or frozen;
•
Your account is in default;
•
You/anyone authorized by you to conduct a transaction commits fraud or violates any laws or regulations; or
•
You fail to follow the instructions on the screen or terminal.
33. LIABILITY FOR UNAUTHORIZED USE. You may be liable for the unauthorized use of your credit card. You will not be liable for
unauthorized use that occurs after you notify Community Financial at the address or telephone number set forth below. You must notify us orally or
in writing of the loss, theft, or possible unauthorized use. In any case, your liability will not exceed $50.00. Notify us at:
Community Financial
P.O. Box 8050
Plymouth, Michigan 48170

(734) 453-1200 or (877) 937-2328
34. LIMITATIONS OF RESPONSIBILITY. We will not be responsible for merchandise or services purchased by you with the Card. We are not
liable for the refusal or inability of merchants, financial institutions and others to accept your card(s) or electronic terminals to honor them or
complete a transaction, or for their retention of the Card(s).
35.

BUSINESS DAY. Our business days are Monday through Friday. Saturdays, Sundays and federal holidays are excluded.

36. GOVERNING LAW. The Agreement and your Account and any claim, dispute, or controversy arising from or relating to this Agreement or
your Account, whether based on contract, tort, fraud, and other intentional torts, statute, common law and/or equity, are governed by and construed in
accordance with the laws of the State of Michigan (without regard to its conflicts of laws principles or rules) and applicable federal laws. The
legality, enforceability and interpretation of this Agreement and the amounts contracted for, charged and received under this Agreement will be
governed by such laws. This Agreement is entered into between you and us in the State of Michigan, and we make credit decisions under this
Agreement from the State of Michigan. You further consent to the jurisdiction and venue of the State or Federal Courts having jurisdiction over the
City of Plymouth, Wayne County, Michigan.
37. ASSIGNMENT. We may sell, assign or transfer all or any portion of your Account, or any balance due under your Account, without prior
notice to you. You may not sell, assign or transfer your Account or any obligations under this Agreement.
38. LOST/STOLEN CARDS. You agree to notify us immediately upon discovering that your Card has been lost or stolen by calling us at (734)
453-1200 or (877) 937-2328.
39. INFORMATION ABOUT YOU AND YOUR ACCOUNT. We will not disclose your non-public personal information to unaffiliated third
parties except as otherwise permitted or authorized by law. Please refer to our Privacy Policy Notice for a full explanation of how we protect your
information. You may obtain a copy of our Privacy Policy Notice by calling us at (734) 453-1200 or (877) 937-2328.
40. BENEFITS AND PROGRAMS. We may offer additional services to your Accounts or special programs related to you being a Cardholder,
such as travel accident insurances, at no additional cost to you. You understand and agree that we are not obligated to offer such services or programs
and may withdraw or change them at any time.
41. SEVERABILITY. If any provision of this Agreement is determined to be void or unenforceable under applicable law, regulation, or rule, all
other provisions of this Agreement shall be valid and enforceable.
42. ENTIRE AGREEMENT / EFFECT OF AGREEMENT. This Agreement, together with any application you signed or otherwise submitted in
connection with the Account, and any mailer/document sent to you with your Card (all of which are hereby incorporated by reference in this
Agreement), constitutes the entire agreement between you and us relating to your Account, supercedes any other prior or contemporaneous
agreement between you and us relating to your Account, and applies to every transaction relating to the Account even though a sales or cash advance
draft you sign or a credit slip may contain different terms. This Agreement may not be amended except in accordance with the provisions of this
Agreement. You further acknowledge receipt of a copy of this Agreement.
43. CREDIT UNION MEMBERSHIP. Membership in the Credit Union is required to obtain credit with the Credit Union MasterCard Card. If
you cease to be a member of the Credit Union you may no longer obtain credit under your Account.The following is important information regarding
your right to dispute billing errors.

Your Billing Rights: Keep this Document for Future Use This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Community Financial
500 S. Harvey
Plymouth, MI 48170
In your letter, give us the following information:
● Account information: Your name and account number.
● Dollar amount: The dollar amount of the suspected error.
● Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
● Within 60 days after the error appeared on your statement.
● At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
● We cannot try to collect the amount in question, or report you as delinquent on that amount.
● The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
● While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
● We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
● If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
● If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing [or electronically] at:
Community Financial
500 S. Harvey
Plymouth, MI 48170
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Revised April, 2017

